<html>
<title> - EXAMINING FEDERAL PROGRAMS THAT SERVE TRIBES AND THEIR MEMBERS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


     EXAMINING FEDERAL PROGRAMS THAT SERVE TRIBES AND THEIR MEMBERS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                  THE INTERIOR, ENERGY AND ENVIRONMENT

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 15, 2017

                               __________

                           Serial No. 115-14

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-359 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c6b7c634c6f797f786469607c226f636122">[email&#160;protected]</a>                        
                       
                       
                       
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matthew Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

               Jonathan Skladany, Majority Staff Director
                    William McKenna, General Counsel
            Ryan Hambleton, Senior Professional Staff Member
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

          Subcommittee on the Interior, Energy and Environment

                   Blake Farenthold, Texas, Chairman
Paul A. Gosar, Arizona, Vice Chair   Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Jamie Raskin, Maryland
Gary J. Palmer, Alabama              (Vacancy)
James Comer, Kentucky                (Vacancy)
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 15, 2017................................     1

                               WITNESSES

Mr. Frank Rusco, Director, Natural Resources and Environment, 
  Energy and Science Issues, U.S. Government Accountability 
  Office
    Oral Statement...............................................     4
    Written Statement............................................     7
Ms. Mary Kendall, Deputy Inspector General, Office of Inspector 
  General, U.S. Department of the Interior
    Oral Statement...............................................    21
    Written Statement............................................    23
The Hon. Tyson Thompson, Councilman, Southern Ute Indian Tribal 
  Council
    Oral Statement...............................................    28
    Written Statement............................................    31

 
     EXAMINING FEDERAL PROGRAMS THAT SERVE TRIBES AND THEIR MEMBERS

                              ----------                              


                      Wednesday, February 15, 2017

                  House of Representatives,
  Subcommittee on the Interior, Energy and 
                                Environment
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:07 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Blake Farenthold 
[chairman of the subcommittee] presiding.
    Present: Representatives Farenthold, Gosar, Ross, Palmer, 
Comer, Chaffetz, Issa and Plaskett.
    Mr. Farenthold. The Subcommittee on Interior, Energy, and 
the Environment will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    We appreciate your interest in this topic and welcome your 
participation today.
    We may be having some members from the full committee here 
today, so I'd like to ask for unanimous consent that all 
members of the Committee on Oversight and Government Reform be 
allowed to fully participate in today's hearing.
    Without objection, so ordered.
    And I'll now recognize myself for 5 minutes for an opening 
statement.
    Today, the Subcommittee on Interior, Energy, and the 
Environment will examine obstacles that Native Americans face 
with respect to energy development, education, and health care 
on tribal land.
    The General Accounting Office and the Department of the 
Interior Inspector General have extensively documented the 
serious and troubling problems Native Americans face in these 
areas. Today, we're going to try to do our part to bring 
attention to these issues by shining a little bit of light, 
congressional light and oversight on them.
    When it comes to energy development, tribes face costs and 
regulatory impediments that do not exist for development on 
non-tribal land. Obtaining a permit to drill on Native American 
land is more expensive and time consuming than doing so off 
tribal lands. Tribes must conduct detailed environmental 
assessments, obtain costly permits that not every tribe can 
afford.
    The Department of Interior attempted to address this by 
creating a special service center to streamline the regulatory 
process. However, three of the largest regulatory agencies, the 
Environmental Protection Agency, the Army Corps of Engineers, 
and the Fish and Wildlife Service were not included in the 
service center. Omitting agencies that play such a large role 
in regulating the energy development undermines the 
Department's effort to reduce the barriers to energy 
development on tribal land.
    As a result of these unnecessary impediments, valuable 
development opportunities are wasted and revenue is lost. For 
example, the Southern Ute Tribe represented here today in our 
hearing, has foregone almost $90 million in revenue waiting for 
Federal approval of right-of-way agreements. Energy resources 
represent a crucial way for many tribes to meet their budgetary 
obligations and provide needed services to their members.
    As for education, the Bureau of Indian Education, or BIE, 
has struggled to provide adequate school facilities for tribal 
children. Roughly 42,000 students attend schools administered 
by the BIE. Badly outdated schools are in disrepair and pose a 
major health and safety risk for students. Inconsistent 
inspections have contributed to deteriorating physical 
conditions of schools. Problems include asbestos, mold, roofing 
issues, and electrical danger. I think we have some slides here 
of some schools.
    As you can see here, we've got an upstairs room in a 1930s 
building that holds elementary classes at Tuba City Boarding 
School. This school, with this exposed wiring, is listed in 
good condition.
    Let's go to the next slide. Now, I don't know if you can 
make it out, but there's some bleachers in there by that middle 
telephone pole. But they've actually put light posts in the 
middle of the athletic field there. Millions of dollars were 
spent on infrastructure improvements and we come up with this.
    Image three, we see thick walls of asbestos installation 
are left in one dormitory because the cost to move it is 
outrageous.
    Next slide. And we see structural cracks in the stairwell 
ceiling at another school.
    Next slide. Building space is needed for student 
activities. In this school, the building is being kept from 
being demolished despite the fact that snow comes into the 
building. That's a pile of snow there under the door.
    Inadequate staff training contributes not only to 
inaccurate reporting of schools' physical condition but also to 
the independent oversight of school expenditures. GAO has found 
that millions of dollars intended for Native American schools 
have been lost due to waste and misconduct.
    In one instance, over $1 million in Federal funds intended 
for a BIE school ended up improperly in a non-school-related 
offshore account. Despite the fact that BIE schools spend 
almost three times per student more than public schools, we 
have a serious problem.
    Similarly, the Indian Health Service agency, which serves 
the medical needs of roughly 2.2 million Native Americans, 
suffers from inadequate patient care. Patients often experience 
unreasonably long wait times, and high turnover rates of key 
personnel negatively impact the quality of care in services at 
IHS schools.
    Hopefully, today we can make some progress by highlighting 
the issues and discuss it with our panel and come up with some 
solutions. As the new administration takes office, this is a 
good time to hold these hearings.
    With that, I'd like to thank the witnesses for agreeing to 
be here today and provide testimony.
    At this point, I'd like to recognize our ranking member, 
the gentlelady from the Virgin Islands, Ms. Plaskett.
    Ms. Plaskett. Thank you so much, Mr. Chairman.
    And thank the witnesses and all of the individuals who are 
here this afternoon about this very important issue.
    Mr. Chairman, this hearing that we're having is critically 
important, and I want to thank you for holding this this early 
in the term. Tribal concerns are often underrepresented, and 
I'm glad that we're dedicating a hearing to address these 
issues and finding solutions.
    The GAO high-risk report has outlined several problems that 
the tribal communities face in the areas of energy, health 
care, and education, as highlighted by the chairman for the 
education issues as well. The report highlights problems 
ranging from inadequate Federal oversight, limited Federal 
workforce planning, outdated and deteriorated equipment, 
technology, and infrastructure, and incomplete or inaccurate 
data.
    These shortcomings are creating significant difficulties 
for these tribal communities. Many tribal communities are 
heavily reliant on energy resources for their economic well-
being and dependent upon the Bureau of Indian Affairs to 
conduct thorough but efficient reviews.
    But the GAO found that it took up to 8 years for the BIA to 
process permits, a delay which caused the Tribe to lose an 
estimated $95 million in revenues that it otherwise would have 
earned from tribal permitting fees, oil and gas severance 
taxes, and royalties.
    This represents an unacceptable financial burden on this 
community. And I have to tell you that I especially am very 
sympathetic and empathetic to these issues, coming from the 
Virgin Islands where we also feel the inadequate representation 
of the Federal Government and often feel forgotten, and the 
last person on the checklist of infrastructure and development, 
energy issues for our young people, and especially for our 
children.
    It's absolutely unacceptable that children are expected to 
thrive and to be productive citizens under the conditions that 
they are now in. The fact that they have speaks to their 
resilience and the power and the wherewithal of your community 
to make that happen.
    GAO also found that similar delays plagued the Indian 
Health Service and the Bureau of Indian Education, preventing 
tribal members from receiving timely health care and making 
schools unsafe for children. In order to improve these Federal 
agencies, the Department of the Interior Office of the 
Inspector General must be able to adequately investigate these 
issues.
    However, I am very concerned that in this new 
administration, the hiring ban is going to severely compromise 
the ability of the IG and the IGs throughout the entire 
government to protect taxpayers from the type of mismanagement 
the GAO found.
    I am asking my Republican colleagues to join me in 
requesting that the President immediately lift the hiring ban 
so our IGs can have the resources and staffing they need to 
ensure the proper functioning of government and prevent waste, 
fraud, and abuse.
    I'm very much, Mr. Chairman, looking forward to hearing 
from our witnesses. And I yield back the balance of my time.
    Mr. Farenthold. Thank you very much.
    And I'll hold the record open for 5 legislative days for 
members who would like to submit a written opening statement.
    I'd now like to recognize our panel of witnesses.
    I'm pleased to welcome Mr. Frank Rusco, director of 
national resources for environment--I'm sorry, let me get your 
title right. Director of Natural Resources Environment for 
energy and science issues at the U.S. Government Accountability 
Office.
    He'll be accompanied and supported by Ms. Melissa Emrey-
Arras, director of Education, Workforce, and Income Security, 
also at the GAO; and Kathleen King, director of Health Care at 
the GAO. Their expertise on this issue will be important for 
the subject matter of this hearing. So when we swear the 
witnesses in, we'll ask that you be sworn in as well.
    Our other witnesses are Ms. Mary Kendall, Deputy Inspector 
General within the Office of Inspector General at the U.S. 
Department of Interior. Welcome.
    And finally, the Honorable Tyson Thompson, councilman with 
the Southern Ute Indian Tribe. Welcome to you all.
    Now, pursuant to committee rules, you will all be sworn in 
before you testify. Would you please rise and raise your right 
hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth, so help you God?
    Let the record reflect all witnesses answered in the 
affirmative. You may be seated.
    In order to allow plenty of time for questions and 
discussion, we do have quite a few members here, we'd 
appreciate it if you'd limit your initial testimony to 5 
minutes. We have copies of your entire written statement, which 
will be made part of the record.
    So Mr. Rusco, we'll start off with you. You're recognized 
for 5 minutes.

                       WITNESS STATEMENTS

                    STATEMENT OF FRANK RUSCO

    Mr. Rusco. Thank you.
    Chairman Farenthold, Ranking Member Plaskett, and members 
of the committee, it's my pleasure to be here today to discuss 
the new area added to GAO's high-risk list: Improving Federal 
management of programs that serve tribes and their members. 
We're adding this high-risk area because we have found 
longstanding problems in the Federal management of Indian 
energy resources as well as the administration of Indian 
education and healthcare programs.
    The Interior's Bureau of Indian Affairs has mismanaged 
Indian energy resources and the Federal role in energy 
development, and this has limited and delayed opportunities for 
tribes and their members to use those resources to create 
economic growth and improve the well-being of their 
communities.
    In addition, we have found numerous challenges facing the 
Interior's Bureau of Indian Education and BIA and the 
Department of Health and Human Services, Indian Health 
Services, in administering education and health care to tribes 
and their members. These shortcomings have put the health and 
safety of American Indians served by these programs at risk.
    As you know, the United States has recognized the sovereign 
status of tribes and currently recognizes 567 Indian tribes as 
distinct, independent political communities that possess 
certain powers of sovereignty and self-government.
    In 2016, Congress found in the Indian Trust Asset Reform 
Act that through treaties, statutes, and historical relations 
with Indian tribes, the United States has undertaken a unique 
trust responsibility to protect and support Indian tribes and 
Indians. These fiduciary responsibilities reflect commitments 
made in treaties and agreements under which Indians surrendered 
claims to vast tracks of land to the benefit of the people of 
the United States. This history has established enduring and 
enforceable Federal obligations to which the national honor has 
been committed.
    The remainder of my statement is focused on energy issues, 
but my colleagues, Melissa Emrey-Arras and Kathy King, are here 
to answer questions about education or healthcare issues as 
needed.
    Some tribes hold abundant energy resources, including coal, 
oil and gas, wind, solar, biomass, and hydroelectric resources. 
And some tribes and members have sought to develop these 
resources.
    While tribes and their members can determine how to use 
their energy resources, many of these resources are held in 
trust or a restricted status. In these cases, BIA must review 
and approve leases, permits, and other documents required for 
development. We have found deficiencies in BIA's management of 
Indian energy resources in several areas.
    For example, BIA processes to issue leases, permits, 
rights-of-way, and appraisals often taking a long time to 
perform, and this has led to delays and missed opportunities 
for tribes and their members. As has been mentioned, in one 
case we reported that delays in rights-of-way for pipelines 
cost the Southern Ute Tribe about $95 million in foregone fees, 
severance taxes, and royalties over a period of 8 years. In 
another case, a 3-year review of a lease to develop wind power 
led to uncertainty about the viability of the project because 
the data that were used to support the economic feasibility and 
environmental impact of the project became too old to use.
    We have recommended that BIA develop and document clear 
processes to track review and response times so they can ensure 
that documents are moving in a timely and predictable fashion.
    BIA has also missed opportunities to streamline review and 
approval processes by not communicating and coordinating with 
other Federal agencies that have a role in these processes. 
Further, BIA has not used best practices to identify key staff 
needs to support energy development, and this has contributed 
to a situation where the Bureau does not have the right people 
with the right skills in the right place to enable energy 
development.
    BIA has also not invested comprehensively in GIS mapping 
technology required to easily identify resources available for 
lease as well as places where leases are already in force. In 
places without GIS capabilities, BIA has to rely on paper 
documents, which adds to review and approval times.
    Lastly, in some cases, BIA does not have accurate records 
of Indian land and resource ownership, another piece of 
information essential for reviewing and improving energy leases 
and ensuring tribes and their members get paid their share when 
energy production begins.
    We have made numerous recommendations to Interior and BIA 
to address these deficiencies, and we will be following the 
progress of the agency and Bureau in improving its delivery of 
services to tribes and their members.
    Thank you. This concludes my oral statement. I'll be happy 
to answer any questions you may have.
    [Prepared statement of Mr. Rusco follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you very much.
    Ms. Kendall, you're now recognized for 5 minutes.

                   STATEMENT OF MARY KENDALL

    Ms. Kendall. Thank you, Mr. Chairman, ranking member, 
members of the subcommittee. Thank you for the invitation to 
testify today about the conditions of Indian country as it 
relates to DOI's responsibilities to American Indians.
    As you know, DOI's mission includes fulfilling trust 
responsibilities to American Indians. Fulfilling these 
responsibilities is consistently a top management challenge for 
DOI. Through the Bureau of Indian Affairs and the Bureau of 
Indian Education, the Department provides services to 567 
federally recognized tribes with a population of about 1.9 
million American Indians and Alaska natives, and provides 
education services to about 42,000 Indian students in 183 
schools.
    DOI funds Indian country programs that provide social 
services, law enforcement and detention services, tribal 
justice systems, housing assistance, repair and maintenance of 
schools, roads, and bridges, and economic development programs 
in some of the most isolated and economically depressed areas 
in the United States.
    For many years, the Office of Inspector General has 
reported that BIA and BIE are failing to meet the 
responsibilities to American Indians on many fronts. I will 
focus my comments today on the challenges facing Indian 
schools. Specifically, substantial work is needed to improve 
the Indian education system, particularly in creating 
environments where children are safe and have adequate means to 
learn.
    In May 2015 testimony, BIE leadership acknowledged that 
they faced unique and urgent challenges in providing a high-
quality education to Indian students attending BIE schools. 
They attributed these challenges in part to difficulty in 
attracting effective teachers, difficulty in adopting research-
based reforms, ongoing organizational and budgetary 
restructuring efforts, and inconsistent BIE leadership.
    A high-quality education is also hampered by crumbling 
school infrastructure and limited broadband internet access. 
All of these challenges contribute to low graduation rates for 
native students. Nationally, the American Indian Alaska native 
high school graduation rate is 69 percent, below the average 
national of 81 percent.
    BIE's 2014 blueprint for reform recommended a shift in the 
Bureau's role from direct provider of education to one of a 
capacity builder and service provider to the tribes that run 
their own schools. According to the blueprint, greater tribal 
control of schools promotes self-governance and self-
determination, giving tribes more power to engage children, 
infuse schools with tribal cultural values and native 
languages, and improve educational outcomes. BIE's goal is 
commendable, but this vision probably requires more technical 
and financial assistance for tribes than BIE can presently 
provide.
    To address some of these complex challenges, DOI's fiscal 
year 2027 budget request proposes $1 billion to sport a 
comprehensive redesign and reform of BIE. But to effectively 
use its Federal funding in addressing these challenges, BIE 
needs to improve both its execution and its oversight of school 
expenditures.
    What I fear gets lost in reports such as those issued by 
GAO and the OIG on Indian country is the impact that the 
conditions we report on has on real human lives. The young 
people in Indian country who are dependent upon the schools 
that BIA operates or oversees are profoundly affected by 
attending schools with crumbling infrastructure, schools that 
have wholly inadequate physical safety measures, and schools 
that are not equipped to prevent or respond to violence or 
other emergency situations.
    This concludes my prepared remarks, and I am happy to 
answer any questions that members of the subcommittee may have.
    [Prepared statement of Ms. Kendall follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you. You're all doing very well on 
the clock.
    Mr. Thompson, can you keep up the trend?
    Mr. Thompson. I'll do my best.
    Mr. Farenthold. You need to turn your microphone on and get 
real close to it. These are kind of very not sensitive 
microphones. They want you to be real close.
    Mr. Thompson. Sounds good. Awesome.
    Thank you, Chairman Farenthold, Ranking Member Plaskett, 
and honorable members of the subcommittee. Thanks for having us 
here today.

                  STATEMENT OF TYSON THOMPSON

    My name is Tyson Thompson, councilman for the Southern Ute 
Indian Tribe, and, again, it is an honor to be here. Our 
reservation is located in southwest Colorado, chipped away 
through the years and years of Federal demands to a section 
that's about 15 by 75 miles, just a strip in the bottom.
    We began to develop oil and gas in our reservation in the 
1940s, and since then we have been taking greater and greater 
control of our mineral resources and destiny. Some examples of 
this are collecting nearly $1 billion in revenue since we 
enacted a severance tax in 1982.
    In 1992, our tribe started Red Willow Production Company, 
which operates wells on and off the reservation and is wholly 
owned by the Southern Ute Indian Tribe. In 1994, our tribe 
partnered to create Red Cedar Gathering Company to provide 
gathering and treating services on the reservation.
    Less than 50 years ago, the Tribe could no longer make per 
capita payments to our members, but with strong vision of our 
past leaders, internal expertise, informed decisions, and 
planning for the future, we have come a long way since then. 
Today, we conduct oil and gas activities in ten States, and we 
are the largest employer of the Four Corners region of 
southwest Colorado.
    Our success allows our tribe to provide many services to 
our people, including great health insurance, as well as give a 
college education to any of our members that wish it. We are 
the only tribe in the Nation with a AAA credit rating from 
Standard & Poor's. About 30 percent of the Tribe's income comes 
from energy development on the reservation.
    There is no question that energy development has put the 
Tribe, our membership, as well as the surrounding community on 
a more stable economic footing. We could tell you firsthand 
that Federal oversight often impedes tribal self-determination. 
For example, the BLM issues drilling permits on tribal lands, 
which can take 4 to 6 months and cost $9,500. The State of 
Colorado, though, can issue drilling permits on private lands 
typically within 45 days, and it's free. No wonder oil and gas 
companies would rather drill on private lands.
    And unfortunately, our reservation is checkerboarded. If 
you're not familiar with a checkerboard status of the 
reservation, it's not unlike this table where the brown color 
is the entire reservation. Everything you see on top of this 
table would be trust land. So an operator can go across the 
fence and have a different set of regulations and still be 
within the exterior boundaries of the reservation and be 
utilizing that same resource that's underground.
    Willing and able tribes should be allowed greater authority 
over energy development on tribal lands. We have shown time and 
time again that we can complete major projects quickly and 
effectively. Federal agencies have often hindered or flat out 
refused our efforts to assist in carrying out these functions, 
or their functions, rather.
    In 2014, Office of Trust Review and Audit report was found 
that the BIA mishandled the Tribe's historical records at the 
Southern Ute Agency. The Southern Ute Indian Tribe made 
countless offers to assist the BIA in solving this problem, and 
after many months, our tribe was finally authorized to enter 
into a 638 contract, allowing the Tribe to scan and organize 
our historic files at the agency while using $1 million of our 
own funding as well as our own staff.
    The Tribe has also streamlined the process of approving, in 
a single transaction, all right-of-way renewals that an 
operator has on the reservation. At times, this number is in 
the hundreds. This approach allows the tribes to easily monitor 
expiration dates and negotiate renewals, including holding 
operators accountable to environmental concerns.
    When the Tribe presented one of these rights-of-way 
packages to the Southern Ute Agency for approval, it took the 
Agency nearly 4 years to approve the package. There was no way 
for the Agency to enter this transaction and its information 
into the department's land management system, which they call 
the TAAMS.
    To overcome the problems at the BIA realty function, the 
Tribe created its own GIS system, known as the land information 
management system. Our system allows the Tribe to scan realty 
records into our database where each document is linked to a 
location on a map, very similar to Google Maps. When you're 
looking for a store and you click on the store, it tells you 
the hours and the dates and the times that they're open. And we 
would be happy to give the demonstration of the system to the 
committee at your convenience.
    The BIA does not have the data resources, staffing, or IT 
capabilities to meet the Tribe's needs or the other capable 
tribes' needs for that matter. We have the capability, and more 
importantly, we have the incentive to improve the situation.
    There is not a one-size-fits-all solution for tribes. Some 
solutions aren't expensive, though. Congress needs to approve 
legislation to allow tribes the choice to take on more 
responsibility. Federal positions need to be advertised locally 
so local people who already live in the area can apply for 
them. There needs to be a cost-of-living adjustment for our 
area to entice people to work there. And the BIA needs to stop 
arbitrarily choosing when they'll exercise trust 
responsibility.
    The BIA abandoned the trust responsibility to protect and 
organize the Tribe's priceless records but then cited their 
trust responsibility when they required Southern Ute Agency and 
the Tribe to use Federal funds to require tribal employees to 
drive 160 miles to be fingerprinted, have a photo taken, 
undergo an hour-long interview with the OPM contract 
investigator before being allowed to work in the office. Those 
are simple solutions and not too expensive to take on to change 
that.
    To follow up, the Southern Ute Tribe is well equipped, as 
we said, and to responsibly develop its own energy resources 
safely and effectively. We do appreciate the efforts of this 
subcommittee, as well as GAO's office and OIG's office, to help 
find solutions to the problems that we experience on a day-to-
day.
    Again, thank you for the invitation to appear before you, 
and I'm happy to answer any questions.
    [Prepared statement of Mr. Thompson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you very much.
    I'll now--we'll now do some questions. I'll recognize 
myself to begin with.
    So let's go, Mr. Rusco, why has it taken so long to get 
things approved in these agencies?
    Mr. Rusco. Well, I think, you know, it gets to a couple of 
things: One is leadership attention, so they've not paid as 
much attention to sort of making sure that they have a plan to 
get the right staff in the right places to do the job. And so 
if you're some place where you used to have a lot of, for 
example, water projects, irrigation projects or something, and 
you want to move to energy, you'd go to the BIA office, and 
they might have a whole bunch of hydrologists, but they don't 
have anybody that knows anything about oil and gas development 
or wind development or anything like that.
    They need to be forward looking. They need to be creative. 
They have an Indian energy center----
    Mr. Farenthold. But you're saying they may not have the 
expertise. How do we solve this without growing the size of 
government and bringing more bureaucrats into these agencies 
who will probably slow the process down?
    Mr. Rusco. So I think there are some potential ways to do 
that, but under the current law, you have to--you do have to 
deal with these agencies. I think that there is a lot to be 
said for building that capacity in a central location, but you 
have to do it in a smart way. And the Indian energy center that 
they started is probably a good idea, but they have not 
executed it well.
    Mr. Farenthold. Why didn't they put EPA Fish and Wildlife 
in the core? I mean, I'm a Texan. I know these are the guys 
that you've got to mess with whenever you're doing any sort of 
infrastructure or energy product. How come they weren't 
included?
    Mr. Rusco. Absolutely. And absolutely, when they were 
building or creating this office, they did not even ask the 
question: What do we need to perform the task that we say this 
is going to perform? They didn't go to that trouble. And that's 
a leadership problem.
    Mr. Farenthold. Right.
    Ms. Kendall, do you have anything to add along this line of 
questioning?
    Ms. Kendall. I really would just rearticulate what Mr. 
Rusco said. I think it is a leadership issue, and it is a 
forward-thinking kind of issue. To sit back and look at the 
entire picture, BIA has so many responsibilities, but I think 
they try piecemeal solutions without coming together and 
actually solving things.
    Mr. Farenthold. All right. So what about devolving some of 
this to the States? Mr. Thompson testified that in Colorado, 
for no charge and 45 days, you could get a drilling permit for 
oil and gas. In Texas, the Railroad Commission is equally as 
efficient. Obviously, there needs to be some government 
oversight where the Tribe itself is not--doesn't have full 
authority just like no landowner has full authority without 
going to the government. Why couldn't some of this be devolved 
to the States?
    Ms. Kendall. Is that my question?
    Mr. Farenthold. That's your question, then I'm going to ask 
Mr. Thompson the same question.
    Ms. Kendall. All right. Thank you, sir.
    I think, in part, because Interior does have the trust 
responsibility, it would take a change in legislation.
    Mr. Farenthold. Wait, we're Congress. We can do that.
    Ms. Kendall. Yes.
    Mr. Farenthold. Mr. Thompson.
    Mr. Thompson. I think Southern Ute is in a unique position. 
I think there's a lot of tribes that may not be as fortunate or 
as lucky as we have been to get to the point where we are 
today. And I think some of those moneys that are redirected 
towards assisting those tribes versus us, when we can--we can 
handle a lot of these situations that come up to really make 
business attractive on the reservation. I don't think giving up 
or taking these regulations to the State would be in the 
Tribe's best interest, just do the self-determination to 
sovereignty issues as we want to be doing what we need to do to 
survive in the world that we're given.
    Mr. Farenthold. So you're--you would more support reform 
within the existing Federal system?
    Mr. Thompson. I think there's a chance to do things 
differently. It would take a little bit of letting go of that 
parental side of treatment that tribes have suffered through 
the years, and in redirecting those available resources to 
other tribes that may request it if they feel like they want to 
request it, and increase the ability of that internal function 
of BIA to be better than it's ever been. But that's only going 
to take place with good management in place.
    Mr. Farenthold. All right. We were talking about how much 
money you guys lost on the oil and gas. I assume, I mean, been 
saying that some of this permitting process took 8 years. I 
would love to be selling my natural gas and oil at prices 8 
years ago as opposed to today. Do you have any other examples 
of where we can--where we should be focused? Obviously, the 
schools, the permitting process. Is that all we need to be 
looking at?
    Mr. Thompson. I think better consultation for all Indian 
tribes is a great idea. Consultation has always been good for 
some and not good for others. I've seen firsthand what the lack 
of consultation can do. But good proper consultation to make 
the programs that work for specific tribes. Every tribe is 
different. Every tribe's needs are different, and to really 
make something that works for each tribe, I mean, it's a big 
challenge, but it's something that can be accomplished.
    Mr. Farenthold. All right. I see I'm out of time. If we get 
to the end and we still have some time, I'll ask more 
questions, but I do want to give everybody an opportunity to 
get their questions answered.
    So we'll recognize the ranking member now for her 
questions.
    Ms. Plaskett. Thank you very much, Mr. Chairman.
    Thank you again, testifiers, for your testimony this 
afternoon.
    Mr. Thompson, sir, you brought up some very interesting 
points. And one of the phrases that I thought you utilized, 
which I'd like you to elaborate on, is arbitrary trust 
responsibility, where you stated that in some instances, the 
trust wants to be responsible, and then in the times when you 
want them to be responsible they're not. Can you elaborate on 
that. Do you remember?
    Mr. Thompson. Yes. I'm just thinking how to word it to you. 
But what I believe where the trust responsibility is really 
coming into play is they're taking that trust responsibility 
and applying it to where they would like to, which is maybe the 
easier, better function for those in the agency at the top and 
instead of, you know, it really addressing the trust 
responsibility, we're asking them to achieve at the moment 
with--in regards to realty transactions. If we could just 
really push some of these things for our tribe that benefit us 
now and quickly and in the long run, I mean, it would be a 
great thing to accomplish.
    As far as trust responsibility not being done in other 
fashions, I mean, there's a lot of examples out there. And I'd 
be happy to provide you some certain examples in writing as 
well.
    Ms. Plaskett. Thank you. You also talked, and all of the 
witnesses today mentioned the Tribal Energy Resources 
Agreement, and as a tool intended to promote efficient energy 
and resource development by allowing tribes to enter into 
energy-related business arrangements without further approval 
of the Secretary of Interior.
    Would that be a correct summary, Ms. Kendall, of the 
agreement?
    Ms. Kendall. That's my understanding of that provision. But 
as of today, to the best of my knowledge, no tribe has entered 
into a TERA agreement.
    Ms. Plaskett. That's what I wanted to talk about. Why do 
you think that has been, and what's been the impediment to the 
tribes being able to do that?
    Ms. Kendall. Well, I'd need to defer to Mr. Thompson to a 
certain extent because I know that the Southern Ute Tribe 
thought about that at one point. I think that there are some 
impediments relative to what the trust responsibilities of the 
Department are and what they could and should give up. I know 
that the Tribe has asked the Department for clarification on 
some issues and has not received that, and I think that's one 
of the impediments.
    Ms. Plaskett. Well, I understood that some of the--this 
goes back to the arbitrary discussion that Mr. Thompson talked 
about. But isn't it also because the Interior's regulations may 
not necessarily be very clear to some of the tribes and what 
will be imposed and not be imposed on that?
    Ms. Kendall. That's very possible, yes.
    Ms. Plaskett. And then, Mr. Thompson, is that correct? Did 
you--I understand that your tribe did do an analysis on whether 
or not they should enter into this agreement and decided not 
to.
    Mr. Thompson. Uh-huh, that's true. We've been looking at 
this for a while, and some of the things that keep us from 
this--I mean, one of the biggest points that comes to mind is 
the inherent Federal function part. The Interior has not 
defined that. We've been asking for a definition for some time. 
Once we can figure out what that is and then we can better plan 
to see what functions we'd actually be assuming. And even once 
assuming those functions, one of the things is TERAs are not 
going to provide funding for us to take over these Federal 
functions. So, I mean, our tribe, like other tribes, were just 
reluctant to move into that.
    Ms. Plaskett. Mr. Rusco, would you think that analysis is 
correct from your review?
    Mr. Rusco. Absolutely. I think, you know, as--you know, 
every tribe is different. And the abilities and capabilities to 
take over what have been Federal functions are going to differ, 
and there's going to have to be capacity building. And so 
tribes are, understandably, weary about sort of saying, yes, 
I'll take on this responsibility without knowing what exactly 
that entails, how much will be on them, how much will be--still 
remain Federal function, and then will they have support in 
order to get--build the capacity to take over the functions 
that are part of the TERA.
    Ms. Plaskett. Thank you.
    Mr. Chairman, I just want to, as clarification, the 
pictures that you showed, which tribe was that from?
    Mr. Farenthold. They were from various locations. Let me 
take a look.
    Flandreau Indian School was one of them. And where were 
the--all of the pictures are out of the OIG report.
    Ms. Plaskett. Okay. Great.
    Mr. Farenthold. The details are in there. There was a 
boarding school in there as well.
    Ms. Plaskett. Mr. Thompson, is the conditions that were 
evidenced in those photographs, is that some of the issues that 
you're dealing with as well?
    Mr. Thompson. At this point, I believe that there's a lot 
of tribes that utilize that funding for education. We are in a 
bit of a different situation, so I might not be the best person 
to ask. There's other tribes----
    Ms. Plaskett. Right. Because your tribe actually, you know, 
with your AAA rating, you have a little bit more funding for 
education. Is that correct?
    Mr. Thompson. Yes.
    Ms. Plaskett. Mr. Chairman, it would be great if we could, 
in the future, maybe have some tribes as a witness who are 
really facing some of the economic--the challenges in education 
that we've stated today.
    Mr. Farenthold. Absolutely.
    Ms. Plaskett. Thank you.
    Mr. Farenthold. Thank you.
    At this point, we'll go to the gentleman from Alabama, Mr. 
Palmer, for 5 minutes of questions.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Thompson--and thank you to all the witnesses for being 
here--I'm particularly interested in the work that you're doing 
in oil exploration and utilizing those resources. I assume, and 
I'm not sure the geography of the--your tribal lands, but does 
that include the Green River Formation?
    Mr. Thompson. I believe Green River Formation might be a 
different--another Ute Tribe. There's three of us.
    Mr. Palmer. It's north of you, I believe. Isn't it? Okay. 
So you talked about over--since 1982, you've generated over $1 
billion in revenue from your activities. Is that correct?
    Mr. Thompson. Yes, through severance tax.
    Mr. Palmer. Severance tax. Are these companies that are 
owned and operated by the Ute Tribe?
    Mr. Thompson. No, these are operators that have leased--or 
through the Tribe have leased trust lands within the exterior 
boundaries of the reservation.
    Mr. Palmer. So--but you're collecting the revenues through 
the leases, and of the royalties you get a part of the 
royalties?
    Mr. Thompson. Yes.
    Mr. Palmer. I'm trying to understand this, because I'm a 
big believer in utilizing the natural resources and doing it in 
the right way. And what little I understand about the Ute 
tribal history, you have a great reverence for the land.
    Mr. Thompson. Uh-huh.
    Mr. Palmer. So you want to take advantage of these 
resources in a way that respects the land that you occupy, that 
you've occupied before anybody else occupied Colorado. Is that 
correct?
    Mr. Thompson. Yes.
    Mr. Palmer. Okay. And you've been able to do that?
    Mr. Thompson. Yes. I mean, we--like I said before in my 
oral statement, we've used that in the past as a way of 
leveraging environmental issues. We had one producer that had 
hundreds of, I guess, rights-of-ways that were coming to time 
to renew them. And at the time, they had grandfathered in a 
compressor system that was from the 1950s and dumping a lot of 
air pollution. We have real strict air regulations on the 
reservation. We work real close with the State on those air 
regulations. And so we used that as an opportunity to tell them 
they need to replace their compressor systems or they're not 
going to be renewed on the reservation.
    Mr. Palmer. Good.
    Let me continue along this line on the permitting process. 
The Bureau of Land Management is responsible for the 
permitting?
    Mr. Thompson. Yes. Well----
    Mr. Palmer. And----
    Mr. Thompson. Sorry. Our department, we have our own 
department of energy, and they take that task on. And the land 
information system is a part of DOE along with our IT folks.
    Mr. Palmer. Maybe I misunderstood. I thought I understood 
you to say that on private land, they can--through Colorado, 
they can get a permit within 45 days.
    Mr. Thompson. Yes.
    Mr. Palmer. And it doesn't cost them anything. But on Ute 
land, how long does it take?
    Mr. Thompson. Oh, it takes 4 to 6 months, usually.
    Mr. Palmer. And why is that?
    Mr. Thompson. Just the time it takes to walk through from 
the moment it leaves our office and goes to the agency office 
and then to the regional office and then to the interior office 
at HQ and then recirculating back to--with all those approvals.
    Mr. Palmer. Does that put you in a--at a disadvantage?
    Mr. Thompson. It does. As we know, the competitive business 
of oil and gas, time is money, so to speak. And if things 
aren't expedited, it takes its toll.
    Mr. Palmer. Especially when most of the companies that are 
doing the type of oil expiration, they're the smaller companies 
and they can't really afford a long lead time after they secure 
a lease.
    Mr. Thompson. Yes.
    Mr. Palmer. Okay. Well, the reason I bring that up is 
because of some of the issues involving the Bureau of Land 
Management Federal lands and big companies being able to buy 
the leases and basically hold the leases to impact the market. 
And I wanted to know if that was the case, but if you're doing 
the leases, you're doing it--you're utilizing the resources for 
the benefit of the Tribe.
    Mr. Thompson. We do a lot of hard work to make business 
attractive on the reservation, and it's a team effort of good 
quality staff that make that happen.
    Mr. Palmer. How does this impact tribal employment?
    Mr. Thompson. Tribal employment, we push real hard for 
tribal employment. We have our growth on employees, quite a few 
tribal members. We'd like to see that increase. And through our 
education program we stress the fact that if we can get some 
engineers or geologists through our education program, they'd 
have a job waiting for them when they leave.
    Mr. Palmer. What's your unemployment rate?
    Mr. Thompson. Unemployment on the reservation, I don't have 
those numbers, but I can definitely provide that to you.
    Mr. Palmer. I would appreciate it if you'd provide that to 
the committee.
    Mr. Thompson. Okay.
    Mr. Palmer. I had something else I wanted to address in the 
context of utilizing these revenues. For years, the United 
States had a ban on exporting crude oil. We have now lifted 
that ban. I think--what was that, Mr. Chairman?--that was in 
December of 2015?
    Mr. Farenthold. Right.
    Mr. Palmer. Have you seen any uptick increase in interest 
in those resources?
    Mr. Thompson. Most of what we've been paying attention on 
since 2015 has been the focus of, you know, the falling oil 
prices. So I don't know if that had any effect on that or how 
that all played a part. But, I mean, just the fall in the oil 
prices----
    Mr. Palmer. How has the regulatory regime, the new 
regulations that have been handed down impacted the 
opportunities for companies to come in and secure a lease and 
actually start production?
    Mr. Thompson. I think that the regulations that come 
through the BLM and onto the reservation, one of the toughest 
parts was BLM trying to place us under the title of public 
lands, and that really concerned us towards the choice of--or 
not towards the choice but the discussion of sovereignty. And 
we took charge in that to try to head that off.
    Mr. Palmer. Mr. Chairman, I think there's something that we 
need to explore a little bit further about how the Bureau of 
Land Management is impacting the ability of----
    Mr. Farenthold. This is our introductory hearing, and we're 
going to figure out where we're going to go from here, so 
absolutely.
    Mr. Palmer. Thank you, Mr. Chairman. I yield back.
    Mr. Farenthold. That would be appropriate.
    And the gentlelady from the Virgin Islands, we're going to 
go back over to the Democratic side and let her ask some 
questions and then we'll be back to Mr. Comer.
    Ms. Plaskett. Thank you, Mr. Chairman.
    I'll be Mr. Raskin if you need me to be for this portion.
    Mr. Farenthold. I think you're fine being who you are.
    Ms. Plaskett. Thank you.
    Thank you all so much again for this. And I wanted to ask 
some questions to you, Mr. Rusco. In the high-risk report, 
there are some issues related to education of the tribal youth. 
I wanted to talk about that a little bit.
    It appears that not only are the children not being 
properly educated, but they're being placed in harm's way with 
outdated and deteriorating equipment and infrastructure. We saw 
pictures of this earlier. Is that--would you say that that's a 
correct assessment?
    Ms. Emrey-Arras. That is correct. Actually, we found 
instances where boilers had failed inspection because of carbon 
monoxide leaks, natural gas leaks. And those leaks persisted, 
in some cases for as much as 8 months, in student dorms with 
staff and students still there.
    Ms. Plaskett. And that's very disturbing. And I wanted to 
know, has any of that resulted in injuries to the children or 
staff at this point?
    Ms. Emrey-Arras. We know that they did fix it. We don't 
have any information regarding the medical situation for those 
individuals, but it's certainly not a condition that we want 
our schools to be in. And it is not acceptable for students and 
staff to be in those environments.
    Ms. Plaskett. Thank you. And this is an ongoing problem 
that I know the GAO has identified. From previous reports, have 
you seen any improvements in this? Have there been changes that 
are done since the reports that were done previously?
    Ms. Emrey-Arras. There have been some improvements, I 
think, because of our work and because of the work of this 
Congress in terms of shining a light on issues. We did find, 
for example, last year, that about a third of schools had not 
been inspected for many years for health and safety issues. And 
in response to our work, the Department made sure that every 
school was inspected for the first time this past fiscal year.
    However, we're not sure that those inspections were 
complete or accurate. And the reason I say that is that because 
in the past, there were situations where, for example, someone 
did a drive-by where they never left their car. They did the 
inspection from their car, never went into a single building. 
And in one case, there was a school with 34 buildings, 
inspector never went inside and produced an inspection. Not 
surprisingly, there were no deficiencies noted for inside the 
buildings.
    Ms. Plaskett. So with seeing that there--what would be the 
thing that would allow for these, not just the inspections to 
be done and not just us shining a light on them, but actual 
movement in terms of improvement for children and the 
environment in which they're expected to go to school?
    Ms. Emrey-Arras. The bottom line is you need to be able to 
identify these safety hazards and then fix them. The schools 
need to get help in remedying these issues, and we made a 
recommendation that the Department assist schools in doing 
this, and that has yet to be implemented.
    Ms. Plaskett. And when you say the department, which 
department do you mean?
    Ms. Emrey-Arras. Department of Interior, Indian Affairs.
    Ms. Plaskett. Okay. And so then, Ms. Kendall, what have 
been the measures that your department or DOI has implemented 
or have you seen done to address these issues? And for those 
issues that have not been addressed, what would be the impetus 
or the assistance to help you get that done? Because I can't 
believe that the Department of Interior wants children to be in 
these positions of, you know, going to school and in 
environments like this. So what is the help that you need to 
make sure that that's done? What are the things that are 
keeping you from getting that done?
    Ms. Kendall. Well, we've identified issues with the Bureau 
of Indian Affairs and the Bureau of Indian Education's resource 
levels, but I think much of it is more distribution and using 
those resources effectively. The Office of Inspector General, 
of course, has no programmatic authority to make any of these 
things happen.
    But I think that greater oversight over BIA and BIE by this 
body and other congressional oversight, in addition to the 
oversight that my office and GAO conducts, would go a long way, 
as well as some really serious leadership action by probably 
new leadership in the Office of Indian Affairs, BIA, and BIE.
    Ms. Plaskett. Now, this is the second time that you've 
mentioned a change in leadership or the problems coming from 
leadership, coming from the top down. Why have you said that?
    Ms. Kendall. Well, it hasn't gotten significantly better. 
I've been with the Office of Inspector General for 17 years, 
and frankly, I think we could probably reissue many of the 
reports that we issued 10, 12 years ago and find much the same 
kind of conditions that we find today. Perhaps here and there 
things have gotten better, based usually on recommendations by 
GAO or the OIG. But as a whole, the system is very, very 
problematic.
    Ms. Plaskett. Thank you.
    So, Mr. Chairman, I think that sounds like a witness list 
for us for potentially another hearing.
    Mr. Farenthold. We'll work on it. We've got a very busy 
schedule for this committee, as you know.
    Ms. Plaskett. Let's get to work. No problem.
    Mr. Farenthold. All right. So now we'll go to--we're going 
to finish out on the--let everybody get their first round in 
here. So we'll move on to Mr. Comer from Kentucky.
    Mr. Comer. Well, thank you.
    I wanted to focus on development and drilling there. 
Obviously, there's a window of opportunity in Washington to try 
to open back up and redefine our energy policy, and certainly 
your economy, this would be a huge boost to it.
    I have a question, Mr. Thompson, where does the money go 
that BLM charges for the permit fee?
    Mr. Thompson. We don't get a report on that.
    Mr. Comer. I understand. You don't get any of that? It's 
a----
    Mr. Thompson. It's----
    Mr. Comer. Do you know the amount?
    Mr. Thompson. $9,500 is the permit fee, but where that 
goes, I couldn't tell you.
    Mr. Comer. Does anyone know where that money goes?
    Mr. Rusco. It goes into the general fund.
    Mr. Comer. The general fund.
    What prevents BLM from approving the drilling permits for 
tribal land sooner?
    Mr. Rusco. That's a question of concern. We don't know 
exactly why, but there are a number of things we've pointed 
out. And so the first thing is they don't track the times so--
for permits very well. So we've been down this path. We have 
oil and gas development on Federal lands in general on the 
high-risk list.
    We've found that there's problems of having people in the 
right places at the right times. They often don't have the 
staff they need to do all the jobs that they have to do, and 
they haven't been very creative in getting them there. There 
have been a couple of good pilots to pull people from some 
places to busier--less busy places to busier places, and those 
have worked. They need to be better at that. They need to be 
more nimble and more creative.
    Mr. Comer. Okay. That's all. Thank you, Mr. Chairman.
    Mr. Farenthold. Thank you very much.
    We will now recognize the gentleman from Utah, Mr. 
Chaffetz.
    Mr. Chaffetz. I thank the chairman.
    A couple things I want to talk about. Do you know--any of 
you know what the percentage of students who are considered to 
have grade-level math skills is? Because my statistics that are 
right here before me say that only 5 percent of students are 
reaching grade-level math skills. Does that sound right? 
Crickets. Nobody? Could you please look at that.
    I'm reading another stat that says--does anybody know what 
the national dropout rate is of the students, Native American 
students, or high schools, grade schools? No?
    This is something, I guess, I would plead with both the GAO 
and the Office of Inspector General to have at the top of their 
minds as they look at this. My understanding is that is 47 
percent. Forty-seven percent, pretty high.
    Part of the issue that we have in Utah, right across, Mr. 
Thompson, across the border there in the Four Corners area--I 
happen to represent Utah's Third Congressional District--we 
have a lot of the Navajo Nation, 3 percent of the Navajo 
Nation, the greater Navajo Nation is in Utah. We have seven 
chapters in my congressional district.
    We have a heavy--or a big problem with roads and the 
ability to get to school and back. Mr. Thompson, I don't know 
what it's like on the Colorado side of the line, but do you 
have these types of problems, school buses, kids, their ability 
to get to school? How far do they travel to get to school? 
What's your personal experience on this issue?
    Mr. Thompson. Again, because of the checkerboard nature of 
the reservation, we also have a municipal city close by to the 
tribal headquarters. So the tribal community surrounds this 
municipality, and it's pretty close. So, I mean, the access 
isn't difficult, and it's an improving school system, happy to 
say.
    Mr. Chaffetz. Good. Good.
    Mr. Thompson. We work pretty close to our education 
department and the school to make sure people are where they 
need to be.
    Mr. Chaffetz. I think if you would look, though--and this 
is my plea also to GAO and the Inspector General's Office--as 
you go out and visit this part of the world, what people don't 
realize is how expansive it is. My county, San Juan County, is 
bigger than New Jersey. We have one stoplight.
    And if you look probably into Mr. Gosar's district, look 
into, you know, in the Four Corners area, one of the big 
problems that we have is the ability of our students to get to 
school, because when it rains or there's snow, there is a big 
problem with--and we've got lots of pictures. The school 
funding levels have not changed to deal with road maintenance.
    San Juan County is doing everything it can. But you have 
students that on average, in many places, miss more than a day 
of school per month just because they can't get to school.
    And I think she would like to say something. Have you been 
sworn in, I hope?
    Ms. Emrey-Arras. I have.
    Mr. Chaffetz. Okay. Good.
    Ms. Emrey-Arras. My name is Melissa Emrey-Arras. I'm with 
the GAO. I think this is very much on point, and I want to let 
you know that GAO is currently investigating this issue of 
tribal roads and school attendance, and we have a forthcoming 
report on this topic.
    Mr. Chaffetz. Very good. Do you have a sense of the timing 
of this?
    Ms. Emrey-Arras. I believe it's late spring.
    Mr. Chaffetz. Very good. That is greatly appreciated. We 
did offer an amendment on an appropriations bill and were able 
to get that through. But because of the CR, I don't know that 
it actually made it all the way to the finish line, but--to the 
level that we'd like to see in the future. But it is a big 
problem and your report would be much, much appreciated.
    The per-pupil spending is much higher than it is actually 
in other parts of the country. Your ability to help us 
understand why the dropout rate is so high, reading and writing 
and certainly the math level is so low, we would very, very 
much appreciate.
    Ms. Emrey-Arras. I could speak to some of that, if that 
would be helpful at this moment.
    Mr. Chaffetz. Sure. Sure.
    Ms. Emrey-Arras. We have done a look at school spending, 
and you're completely right. It's much higher on a per-pupil 
basis for the BIE schools. We found that it was 56 percent 
higher than comparable public schools. A lot of that has to do, 
as you point out, with the remote locations of the schools. 
Also, the schools tend to have lower enrollments than public 
schools. And in addition, quite a few of the students tend to 
be low income and in need of special education services, which 
are more costly. So those are some of the driving factors for 
the difference in cost.
    And in terms of the academics, as you point out, students 
in the BIE school system do perform worse than students 
elsewhere. We found, for example, that students attending BIE 
schools scored 22 points lower for reading tests and 14 points 
lower for math tests in the fourth grade than other Indian 
students attending public schools. So this is, you know, very 
comparable in that way.
    Mr. Chaffetz. Right.
    Ms. Emrey-Arras. And as you all know, the graduation rates 
are also much lower for Indian students attending BIE schools 
than Indian students nationwide.
    Mr. Chaffetz. And so my plea, I guess, for the panel and 
everybody is we can keep doing what we're doing and we'll 
probably get the same results. But if you want a different 
result, we're probably going to have to do something different. 
So suggestions, ideas on what to do different rather than just 
spend more money, because we're already spending more money, 
we've got to be able to figure out how to get a different 
result. And we're open to the ideas and possibilities.
    I've gone over my time. Thank you, Chairman. I yield back.
    Mr. Farenthold. Thank you very much. We'll now recognize 
the vice chairman of the subcommittee, the gentleman from 
Arizona, Mr. Gosar.
    Mr. Gosar. I thank the chairman. Mr. Thompson, my family is 
from Durango and Bayfield. So thank you very much for all that 
you do.
    Mr. Thompson. Thank you.
    Mr. Gosar. I want to the highlight your tribe. Because 
you've taken advantage of your resources and development. 
Right?
    Mr. Thompson. Yes.
    Mr. Gosar. That's why you're in the position you are today. 
Right?
    Mr. Thompson. Part of the reason, sure.
    Mr. Gosar. Pretty aggressive. Right?
    Mr. Thompson. Oh, yeah. Pretty aggressive.
    Mr. Gosar. So I want to go back to these TERAs. Okay? 
Because they're of high conflict in your opinion. Right?
    Mr. Thompson. Yes.
    Mr. Gosar. Okay. So part of the problem is is that the 
interior has--or BIA has been very poor on their promises. 
Right? In keeping their promises?
    Mr. Thompson. Historically, yes.
    Mr. Gosar. So if you were to write, looking at these TERAs, 
have you had any direct review of these TERAs personally 
yourself?
    Mr. Thompson. Personally, we've gone through a few since my 
time. And it's been a discussion for quite a bit of time, 
actually, within our legal team and other council members of 
the past.
    Mr. Gosar. Have you made proposals to BIA and BLM in regard 
to how those TERAs could be better defined or how their 
interpretations are?
    Mr. Thompson. Yes. We've made suggested changes, requested 
information, especially on the inherent Federal functions. 
We've also asked about how they were measured, travel capacity, 
how they will define the inclusion of public in the discussion 
process, and also the--just what is the assumed Federal 
functions the tribe will take on. That's been some unclear 
answers since the beginning of questioning.
    Mr. Gosar. Did you get any answers?
    Mr. Thompson. Not to this day.
    Mr. Gosar. Would you--would it be possible to get those-- 
those letters of inquiry to the committee?
    Mr. Thompson. I'm sure we could provide you with a lot of 
documentation to that effect.
    Mr. Gosar. So in getting back to these TERAs and giving up 
to--because I thought I heard some of the aspects of impugned 
sovereignty. Non-sovereignty. Right?
    Mr. Thompson. Okay.
    Mr. Gosar. Is that what I heard?
    Mr. Thompson. Just----
    Mr. Gosar. Within these TERAs.
    Mr. Thompson. I think it's close to how TERAs will affect 
our sovereignty. And we want to always empower tribes, our 
tribe, other tribes to have more--to have more responsibility 
over what governs themselves and how we govern ourselves, and 
so we try to get to that.
    Mr. Gosar. See, I like where you're going. So I'm going to 
go back to these permitting processes because of the inherent 
bias within--I think is going on within the agency. Do you have 
the same kind of problems for alternative energy?
    Mr. Thompson. No. We actually received a pretty good grant 
to get solar projects started on our reservation----
    Mr. Gosar. Are they fast tracked?
    Mr. Thompson. It should come up on online this spring.
    Mr. Gosar. Wow. What wind of permitting time was that?
    Mr. Thompson. It was started right before I came in. Do we 
know how long that was? It was a few years of permitting 
process, though.
    Mr. Gosar. So it went through a full long line of 
permitting. So something still similar to that application?
    Mr. Thompson. Yes.
    Mr. Gosar. Was there a change in aptitude in regards to 
looking at alternative energy versus oil and gas?
    Mr. Thompson. I'm not sure there was a change in aptitude 
on that.
    Mr. Gosar. So was it easier to find people to come out then 
to review it? I would be just--I would be really intrigued by 
that because I'm a believer in all-the-above energy policy. And 
so, you know, I think that we have got to feign away the 
biases. My--go ahead.
    Mr. Thompson. I'm sorry. I think this would be a great 
opportunity to invite you to our reservation to see what we do 
and maybe----
    Mr. Gosar. I go through there all the time.
    Mr. Thompson. Well, I mean just meet with our staff and 
really talk about these things and get these answers firsthand. 
It would be a great opportunity.
    Mr. Gosar. Well, and it drives me to my point about 
sovereignty is that if you're truly sovereign, really, why is 
it that the BIA or the BLM is truly involved?
    Mr. Thompson. I think it comes down again to what they 
define as tribal trust responsibility and----
    Mr. Gosar. No, but I think they are two different things.
    Mr. Thompson. There is.
    Mr. Gosar. Because in sovereignty, I mean, there shouldn't 
be an inherited trust obligation because you're taking that.
    Mr. Thompson. Yes.
    Mr. Gosar. So I think that conversation should be a very 
innate one. But I'd really like to explore more about the 
TERAs. And in regards to you, because you have been a very 
successful tribe, and I think a lot more tribes need to 
understand how you leverage that. Because it's very similar to 
what western states were promised in regards to royalties and 
shared royalties for the betterment of education and 
government--rural governments stuff like that and 
infrastructure projects.
    So we'll keep this up. I've run out of time. I appreciate 
it, Mr. Thompson.
    Mr. Thompson. Thank you.
    Mr. Issa. [Presiding.] The gentleman yields back. I'll now 
recognize myself for a round of questioning.
    This morning at the full committee in this same room we had 
Gene Dodaro. And I asked him basically three questions related 
to this afternoon's hearing. And it went like this: Isn't it 
true that the Federal Government has failed our tribes when it 
comes to their education? Isn't it true that we have been less 
than responsive at helping them build their energy 
requirements? I didn't name oil versus anything else. I just 
said energy, and he said yes. And as I went through that 
process, what I've discovered was we, the Federal Government, 
have failed.
    And when I asked the general what we should do about it, he 
said: Well, I will be meeting with HHS when it comes to the 
health care part, which was the third failure, I'll be meeting 
with the new Secretary. And when I meet with, when confirmed, 
the new Secretary of the Interior, he's got a big job. And he's 
going to have to make fundamental changes.
    Now, I say this just to make sure that you knew what your 
boss had said. Do you see any difference in the fact that our 
Federal Government in the past several years has failed in 
these three areas sufficiently that for the first time that 
I've been looking at it these are on the high risk?
    Mr. Rusco. No, I was at this morning's hearing. And I'd 
never disagree with the Comptroller General. But----
    Mr. Issa. Well, this is one place you're welcome to shed 
some light. We'll give you congressional immunity, of course.
    Mr. Rusco. Thank you. But no, I agree--I agree 100 percent. 
This is a case where in all three areas we all agreed that the 
body of work that had been done in there showed a persistent 
failure to efficiently and appropriately manage Federal 
programs designed to serve tribes and their members.
    Mr. Issa. And I'm particularly concerned about health care. 
It would seem that at a time when we put just in ObamaCare 
subsidies $51 billion into subsidies for less-well-off people, 
it sounds likes Indian health didn't get their share of that.
    Mr. Rusco. Kathy King is here from our healthcare group 
to----
    Mr. Issa. Kathy, good to have an expert.
    Ms. King. A few years ago we did some projections about the 
number of Indians that would be eligible for--or potentially 
eligible for care under the ACA, both under Medicaid and under 
the exchanges. And we found that there were hundreds of 
thousands that could be potentially eligible, depending upon 
whether you live in a State where Medicaid has expanded.
    Mr. Issa. But in most cases, if you live on tribal land, 
such as the Navajo and others, you're very likely to be below 
that 135 percent of the poverty
    Ms. King. Yeah. Yes. We have not gone back and looked to 
see how many of them have actually enrolled in those programs. 
But the enrollment in those programs can be potentially helpful 
in two ways.
    One, if people enroll in Medicaid or the exchanges and they 
seek care at an IHS facility, then they--IHS can bill for those 
services and they can augment their revenues and serve more 
people. Or if they go elsewhere, that frees up more money for 
people at IHS.
    Mr. Issa. Well, and that begs the question of if somebody 
comes in to a Native facility, are they asking: Are you on it, 
and then assisting them in getting on it, which ultimately is a 
self-funding method. Did you find that in your overview?
    Ms. King. We did our work before the ACA actually took 
effect. But one of things that we were concerned about----
    Mr. Issa. But Medicaid was still a question back then.
    Ms. King. Yeah, Medicaid was still a concern. But--were the 
expansions. They do have patient care representatives. But one 
of the things that we would have liked them to do is to expand 
their use of patient care representatives to help with what we 
thought would be an onslaught of enrollment. And they said that 
they were not able to do that.
    Mr. Issa. And as a result, what could have improved life 
for Native Americans didn't happen. And that's why they're on 
the endangered--or the high risk list.
    Ms. King. Some of our work predated that. So we don't know 
for sure. But, you know, there are two ways that people get 
care through the IHS. You can get care at an IHS facility, or 
if the services are not available there, which they frequently 
aren't, then they buy services on the open market. And when 
they do that, there is a priority listing that varies from area 
to area. So in some areas the only people who get care are 
people who are in danger of life or limb.
    Mr. Issa. In other words, we're giving less than the care 
that they were promised because we either--either they can't 
come to a clinic that has the facility or we're crying poor and 
rationing care.
    Ms. King. There is a trust responsibility.
    Mr. Issa. Okay. I'll close quickly because the energy issue 
Mr. Gosar touched on I want to just run one question. And I'm 
not a lawyer. So that means that I may ask a question I don't 
know the answer to. But in a nutshell, the last 8 years, in my 
estimation, there's been a war on carbon, on coal, on oil, and 
natural gas.
    When you look at the difficulty the tribes have getting 
through a bureaucracy even though they pay for something that 
is their asset on their sovereign land, is there any 
possibility that not that they were singled out but they were 
caught up in a war on carbon that occurred that caused them to 
be simply not able to exercise their rights? And I ask that 
because clearly Federal land usage for natural gas, oil, and 
coal dropped over the last 8 years while it rose on non-Federal 
land.
    Mr. Rusco. There is a lot there. So we did find that these 
delays and problems with permitting and development occurred 
across the board for energy on tribal lands. So there are wind 
projects that had been languishing for years, and meanwhile 
State or utility agreements to purchase the power expired and 
they had to renegotiate these things. And we found that kind of 
across the board.
    Mr. Issa. So if I can summarize what you said, you're 
saying the last several years they've been inept at allowing 
Native Americans to utilize the resources. And as a result, it 
has hurt their ability to help themselves?
    Mr. Rusco. Certainly when you miss an opportunity and, you 
know, for example, for oil and gas, development is all about 
the price of the resource and the location of the resource. 
When prices are high, companies are like all over the place. 
And if you can't get a permit through in time and the price 
falls, they're less interested. So there is a--there's an 
inherent disadvantage if you know you're going to go into a 
long permitting process.
    Mr. Issa. Well, since the gentleman from Texas comes from a 
place where they do permits on a State basis and they do them 
quickly, I will let him reassume the chair. And I thank all of 
you and yield back.
    Mr. Farenthold. [Presiding.] Ms. Plaskett, do you have some 
more questions?
    Ms. Plaskett. I do have a couple more questions. Thank you 
for your indulgence, Mr. Chairman.
    Touching on the question that was just raised by my 
colleague Mr. Issa about the Affordable Care Act, Mr. Rusco, do 
you know, is it possible for GAO to make a determination on how 
many American Indians are currently using--I know that that was 
not part of your last report. But do you or, Ms. Kendall, have 
you looked at ways of determining who is taking advantage of 
that?
    Ms. King. We could examine eligibility rolls.
    Ms. Plaskett. And would that also tell you the other 
question I asked, was his informing tribal members that the 
Affordable Care Act was available for them?
    Ms. King. They did do--in response to our recommendations, 
they did begin doing some outreach. There was a delay because 
of there was some uncertainty about whether the Affordable Care 
Act would go into effect or not. But they did do some outreach. 
But we could now go back and look at eligibility rolls and 
determine whether--determine how many people enrolled.
    Ms. Plaskett. I mean, I just find this, you know, 
heartbreaking because this really correlates to so much of 
what's happening in my own community and in most communities, 
minority communities, underserved communities, where people are 
dying of preventable diseases.
    And a lot of it is treatable health conditions related to 
diabetes and hypertension and some of these other areas that we 
should be taking up the slack in.
    Ms. King. Yes. And we do know that Native Americans have a 
shorter life expectancy and greater comorbidities.
    Ms. Plaskett. Okay. Thank you very much.
    And the other questions that I have are related to Ms. 
Kendall. When there was the creation of the inspector general, 
which you say you've been there now for 17 years, to detect 
waste, fraud, and abuse, you do that by hiring auditors and 
investigators. Correct?
    Ms. Kendall. That's correct.
    Ms. Plaskett. How many do you have on staff now?
    Ms. Kendall. We have roughly 100 auditors and about 95 
investigators.
    Ms. Plaskett. And that's for the Department of Interior?
    Ms. Kendall. For the entire Department.
    Ms. Plaskett. And what are they reviewing? What's the scope 
of their review?
    Ms. Kendall. Well, we have nine bureaus and offices that 
comprise the Department of the Interior. So our oversight 
responsibility is vast.
    Ms. Plaskett. Okay. And ``vast'' meaning how many thousands 
of----
    Ms. Kendall. Seventy thousand employees. About that again 
of grantees and contractors.
    Ms. Plaskett. So that's a good point. So you're not only 
reviewing yourself, but you have contractors and vendors and 
others that you do review for.
    Ms. Kendall. That's correct.
    Ms. Plaskett. So the announcement of a hiring freeze in the 
recent administration has--what has happened in the past when 
you've had hiring freezes in terms of the agency and the 
inspector general being able to complete their operations?
    Ms. Kendall. Well, essentially like all the OIGs, we are 
very personnel driven. And close to 80 percent of our budget 
goes to salaries. We have no programmatic functions or funding. 
And so a hiring freeze, much like budget reductions, hit us in 
a fundamental ability to do our job.
    Ms. Plaskett. And that's important under this committee 
because we rely on you all so much for the reports and the 
timely reports that you give us so that he we can identify 
these areas that are of concern so we can address the Bureau of 
Indian Affairs and their discrepancies, deal with the school 
issues that we have.
    Can you describe for us some of the challenges that your 
office will face now if there's a hiring freeze in the Office 
of Inspector General?
    Ms. Kendall. Well, certainly we do not have a great deal of 
vacancies right now. But if we were to continue to lose people 
to retirement or to other agencies or to the private sector, we 
would be limited considerably in being able to fill those 
positions.
    As I heard Mr. Dodaro this morning talk about hiring 
freezes, I believe he said that historically they have not been 
particularly effective in terms of saving funds. But certainly 
agencies like ours who are really personnel driven, we are 
affected fairly significantly.
    Ms. Plaskett. Okay. Thank you.
    Thank you so much, Mr. Chairman.
    Mr. Farenthold. Thank you. And I just want to follow up on 
one thing. My inner tech geek is going to come out.
    So I wanted to talk to Mr. Thompson about your scanning 
project. One of the--I also serve on the Technology 
Subcommittee of this committee. And one of things that I've 
noticed is our Federal Government couldn't compute its way out 
of a paper bag sometimes. Could you outline the scanning 
program and the GIS program and how you all took that over and 
how that is helping the Federal Government.
    And do you think there's some ways that, based on what you 
have done, the Federal agencies or other tribes could improve 
the service within the Federal Government by things that you do 
yourselves?
    Mr. Thompson. Awesome. I guess there was--a few years ago 
there was a deadline set on realty records and BIA records all 
being consolidated to a place in Oklahoma. It was concerning to 
us and we needed those documents to do our business on a day-
to-day.
    So that's when this--there was a rush to try to do 
something to start scanning these records in. At the same time 
we needed a better system of--then TAAMS could ever provide. 
And we needed something more efficient to help us be better 
stewards of our land and our opportunities.
    So we developed the land information--the land information 
management system as a way of making it easier to track all 
realty functions that take place on the reservation, all the 
rights of ways, anything related to energy going into this 
system to give us a point and kind of situation that we can get 
to the documents we need to do what we need to do.
    Mr. Farenthold. And you were able to find a software 
solution, hardware pollution, to do that relatively easily and 
inexpensively?
    Mr. Thompson. No. We created the system ourselves 
internally. It wasn't something that anybody else had to offer 
that would work for us. So it was something that we developed 
on our own with good people and time.
    Mr. Farenthold. Okay. And do you--given the--in hindsight, 
would you do it again?
    Mr. Thompson. Well, I think if we had to go through this 
entire process of having to do it, I wish that that could have 
been different. But, I mean, it did produce an opportunity for 
us to create something that----
    Mr. Farenthold. And is that something you're open to 
sharing with potentially other tribes or, you know, sharing 
your experience in there working together to make things better 
for everybody?
    Mr. Thompson. I think Southern Ute's always willing to help 
other tribes as much as they can, showing them what we have 
done as a success story in any country in energy development. 
And, again, we are throwing out the offer or the invitation to 
see a demonstration.
    Mr. Farenthold. All right. Great. Ms. Plaskett, do you have 
anything else?
    All right. I'd like to thank our witnesses to for taking 
time to appear before us today.
    I'd also like to ask unanimous consent that members have 5 
legislative days to submit questions for the record. Without 
objection, that's so ordered.
    If there's no additional business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 3:26 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
